Memorandum




                                                                         -
           To:    ~    File
                       19$0900%

        From:          8
                       w
                       -
    Through:
                       Special

      Subject:

                      alleged that Dr.          while supervising D ~ . S grant,        F required
                                                           feesn or "analytical costs," even though
no 'analysis" was done.                                alleged that Dr.             was purchasing
            materials from                                he then used to create
                                                                                          P i n
this work, Dr.h         e        n sold the             ac t              for a profit.
                                                      Il
                                                      I1




                                                                                      -
           a dispute
about the ownership
         was a disgruntled former                                                 to sabotage Dr.
         research, and who was

We examined Dr
                                                  1 as those of
                                   NSF grants as well                           examined account
                                    for these gran(s Dr. -Dr.
                              were interviewed. In addition, I
                                                 11
                                                 I


We did not identify any charges
                            -                                                            -
                                for abstract fees or analytical costs (or anything- analogous to
                                                  we did not identify any transactions with
                                               grants.          accounting personnel examined
                                                                  there were no analytical costs
           s NSF grant, and that there had iibeen no transactions of any kind wit
in the     grants.                           1
Based on the lack of evidence in support of d r . m allegations, this case is closed.
